                                       AUDIT




 INDEPENDENT AUDITORS’ REPORTS
 U.S. DEPARTMENT OF THE INTERIOR
 FINANCIAL STATEMENTS FOR FY2010
 AND FY2009




Report No.: X-IN-MOA-0004-2010   November 2010
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OFTHE INTERIOR

                                                                                NOV 1 5 2010
Memorandum

To :           Secretary Salazar

From :         Mary L. Kendall
               Acting Inspector General

Subject:       Independent Auditors' Report on the U.S . Department of the Interior Financial
               Statements for Fiscal Years 2010 and 2009
               Report No. X-IN-MOA-0004-2010

Introduction

       This memorandum transmits the KPMG LLP (KPMG) auditors ' report of the U.S .
Department of the Interior (DO I) financial statements for fiscal years (FY s) 2010 and 2009. The
Chief Financial Officers Act of 1990 (Public Law 101-576), as amended, requires the DOl
Inspector General or an independent auditor, as determined by the Inspector General, to audit the
DOl financial statements.

        Under a contract issued by DOl and monitored by the Office of Inspector General (OIG),
KPMG, an independent public accounting firm, performed an audit of the DOl FY20 10 and
FY2009 financial statements. The contract required that the audit be performed in accordance
with the "Government Auditing Standards," issued by the Comptroller General of the United
States and Office of Management and Budget Bulletin No . 07-04, "Audit Requirements for
Federal Financial Statements."

Results of Independent Audit

        In its audit report, KPMG issued an unqualified opinion on the DOl financial statements.
However, KPMG identified four significant deficiencies in internal controls over financial
reporting, of which none was considered a material weakness. In addition, KPMG identified
three instances in which DOl did not comply with laws and regulations, specifically, the Anti-
Deficiency Act, the Single Audit Act Amendments of 1996 and the Prompt Payment Act.

        KPMG performed auditing procedures at Departmental Offices, Indian Affairs, Bureau of
Reclamation, National Park Service, U.S. Geological Survey, Bureau of Land Management, U.S.
Fish and Wildlife Service, Bureau of Ocean Energy Management, Regulation and Enforcement,
and Office of Surface Mining, Reclamation and Enforcement to support the DOl consolidated
financial statement audit.




                               Office of Inspector Genera l I W ashington, DC
Evaluation of KPMG Audit Performance

       To ensure the quality of the audit work performed, the OIG:

              reviewed KPMG’s approach and planning of the audit;
              evaluated the qualifications and independence of the auditors;
              monitored the progress of the audit at key points;
              coordinated periodic meetings with DOI management to discuss audit progress,
               findings, and recommendations;
              reviewed KPMG’s audit report; and
              performed other procedures we deemed necessary.

        KPMG is responsible for the attached auditors’ report, and the conclusions expressed in
it. We do not express an opinion on DOI financial statements nor on KPMG’s conclusions
regarding the effectiveness of internal controls or compliance with laws and regulations.

Report Distribution

         The legislation creating the OIG requires semiannual reporting to the Congress on all
audit reports issued, actions taken to implement audit recommendations, and unimplemented
recommendations. Therefore, we will include a summary of the information contained in the
attached audit report in our next semiannual report. The distribution of the report is not
restricted, and copies are available for public inspection.

       We appreciate the cooperation and assistance of DOI personnel during the audit. If you
have any questions regarding the report, please contact me at 202–208–5745.

Attachments




                                                2
                                                                                              Attachment 1

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                          Independent Auditors’ Report



Secretary and Acting Inspector General,
U.S. Department of the Interior:

We have audited the accompanying balance sheets of the U.S. Department of the Interior (Interior) as of
September 30, 2010 and 2009, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended (hereinafter referred to as “financial statements”).
The objective of our audits was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2010 audit, we also considered Interior’s internal control over financial
reporting and tested Interior’s compliance with certain provisions of applicable laws, regulations, contracts,
and grant agreements that could have a direct and material effect on these financial statements.

Summary

As stated in our opinion on the financial statements, we concluded that Interior’s financial statements as of
and for the years ended September 30, 2010 and 2009, are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles. As discussed in our opinion on the
financial statements, Interior changed the reporting of costs and exchange revenue related to allocation
transfer accounts within Interior, adopted Statement of Federal Financial Accounting Standard No. 33
Pensions, Other Retirement Benefits, and Other Post-employment Benefits: Reporting the Gains and
Losses from Changes in Assumptions and Selecting Discount Rates and Valuation Dates (SFFAS No. 33),
and adopted Office of Management and Budget (OMB) guidance for distributed offsetting receipts as of
October 1, 2009.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be significant deficiencies, as defined in the Internal Control Over Financial Reporting
section of this report, as follows:
    A. Information Technology Controls Over Financial Management Systems
    B. Controls Over Undelivered Orders
    C. Monitoring Legislation
    D. Grant Monitoring Controls

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control Over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed the following instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards, issued by the Comptroller General of the United States,
and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended:
    E. Anti-Deficiency Act
    F. Single Audit Act Amendments of 1996
    G. Prompt Payment Act




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
The following sections discuss our opinion on Interior’s financial statements; our consideration of
Interior’s internal control over financial reporting; our tests of Interior’s compliance with certain provisions
of applicable laws, regulations, contracts, and grant agreements; and management’s and our
responsibilities.

Opinion on the Financial Statements

We have audited the accompanying balance sheets of the U.S. Department of the Interior as of
September 30, 2010 and 2009, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of the Interior as of September 30, 2010 and 2009, and its net
costs, changes in net position, budgetary resources, and custodial activity for the years then ended, in
conformity with U.S. generally accepted accounting principles.

As discussed in note 1 to the financial statements, Interior changed the reporting of costs and exchange
revenue related to allocation transfer accounts within Interior as of October 1, 2009. Also as discussed in
note 12 to the financial statements, Interior adopted SFFAS No. 33 as of October 1, 2009. Finally, as
discussed in note 18 to the financial statements, Interior adopted OMB guidance for distributed offsetting
receipts as of October 1, 2009.

The information in the Management’s Discussion and Analysis, Required Supplementary Information, and
Required Supplementary Stewardship Information sections is not a required part of the financial
statements, but is supplementary information required by U.S. generally accepted accounting principles.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit this
information and, accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Introduction section, Message from the Chief Financial Officer, and Other
Accompanying Information section is presented for purposes of additional analysis and is not required as
part of the financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

Internal Control Over Financial Reporting

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that
we consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described below as A through D that we consider to be significant
deficiencies in internal control over financial reporting. A significant deficiency is a deficiency, or a


                                                       2
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

A. Information Technology Controls Over Financial Management Systems

Interior did not have adequate information technology controls to protect its financial management systems
as required by OMB Circular No. A-130, Management of Federal Information Resources. These
conditions could affect Interior’s ability to prevent and detect unauthorized changes to financial
information, control electronic access to sensitive information, and protect its information resources.
Although Interior has improved its application and general controls, Interior should continue improving the
information technology controls over its financial management systems, as discussed below.

1. Access Controls
   Access controls protect financial and sensitive information from unauthorized modification, disclosure,
   and loss; however, Interior did not fully establish controls to prevent and detect unauthorized access.
   One Interior component had user access policies that were not consistent with Interior’s Department-
   wide guidance. In addition, Interior did not consistently review and approve segregation of user
   responsibilities. Additionally, Interior did not properly protect certain generic users or consistently limit
   use of emergency privilege users. Interior also did not consistently approve user access before granting
   access, document review and approval of user access, recertify user access, maintain user access
   documentation, and remove access for terminated users. Furthermore, Interior did not establish controls
   over contractor access to applications. Finally, Interior did not consistently configure applications to
   prepare audit logs, review audit logs, or document that audit log reviews were completed for two
   applications.

2. Configuration Management
   Configuration management controls ensure that only authorized programs and modifications are
   implemented. Interior did not fully segregate software development and change responsibilities for two
   applications. Interior also did not fully segregate conflicting user responsibilities in one application. In
   addition, Interior did not consistently test and document testing of application changes before the
   changes were implemented. Furthermore, Interior did not properly configure an application to prepare
   application change audit logs. Finally, Interior did not apply the latest security updates for several
   applications.

Recommendations
We recommend that Interior continue to improve the information technology controls over its financial
management systems to ensure adequate security and protection of the systems as follows:
1. Issue consistent user access guidance, review and approve segregation of user responsibilities, protect
   generic users, limit use of emergency privilege users, approve user access before granting access,
   document review and approval of user access, recertify user access, maintain user access
   documentation, remove access for terminated users, controls contractor access to applications, prepare
   and review audit logs, and document audit log reviews.
2. Segregate software development and change responsibilities, segregate conflicting user responsibilities,
   test and document testing of application changes, prepare and review application change audit logs, and
   apply the latest security updates.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.


                                                       3
B. Controls Over Undelivered Orders

Interior obligates its budgetary resources when placing orders with other federal entities and public
organizations and reduces the order balances as goods and services are received. Interior policies require
Interior components to review and certify undelivered orders quarterly and to de-obligate invalid
obligations. Although Interior has improved compliance with its policies, Interior should continue
improving the effectiveness of the review and certification procedures because Interior incorrectly certified
undelivered orders overstating undelivered orders by approximately $214.5 million. In addition, Interior
recorded invalid recoveries or did not record recoveries of undelivered orders timely for approximately
$30.5 million. Furthermore two Interior components did not modify the period of performance timely for 3
of the 157 expired orders tested. As a result of our observations, Interior analyzed and adjusted its
undelivered orders.

Recommendations
We recommend that Interior implement the following recommendations to improve controls over its
undelivered orders:
1. Provide training to program and finance personnel on certifying and closing out undelivered orders.
2. Improve the effectiveness of the review and certifications of undelivered orders by the Office of
   Financial Management and component personnel.
3. Monitor and close out, as appropriate, undelivered orders with minimal to no activity during the past
   three months, on at least a quarterly basis.
4. Analyze system-generated recoveries to ensure that the transactions are valid recoveries.
5. Modify expired orders either before the order expires or within 30 days of expiring.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.

C. Monitoring Legislation

Interior’s operations are impacted by legislation, including the programs that Interior is authorized to
operate and amounts that Interior is authorized to spend. Interior did not consistently monitor and
communicate new legislation to those required to implement the new legislation. As a result, Interior
disbursed $1.2 million to counties that Interior was not authorized to disburse in accordance with new
legislation and did not comply with the Anti-Deficiency Act.

Recommendations
We recommend that Interior implement the following recommendations to improve controls over
monitoring legislation:
1. Improve its procedures on monitoring legislative provisions to identify provisions affecting Interior
   operations.
2. Implement a formal communication process to communicate new legislation affecting Interior
   operations to those responsible for implementing such legislation.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.



                                                     4
D. Grant Monitoring Controls

Interior should improve controls over grant monitoring as Interior is required to monitor its grantees in
accordance with the Single Audit Act Amendments of 1996, the related OMB Circular No. A-133, Audits of
States, Local Governments, and Non-Profit Organizations (OMB Circular No. A-133), and other laws.
Interior did not have a complete listing of grant awards or grantees to ensure that it monitored grantees,
obtained single audit reports, and issued management decisions on audit findings. Interior also did not
consistently communicate federal award requirements to grantees. In addition, Interior did not obtain or
follow up on past due financial status or performance reports for 29 of the 160 grantees tested at four
Interior components. Furthermore, two Interior components did not obtain single audit reports within nine
months of the grantee’s fiscal year-end for 19 of 91 grantees tested. Finally, two Interior components did
not issue management decisions on audit findings within six months after receipt of single audit reports or
ensure that the grantees completed appropriate and timely corrective action on such findings for 6 of the 36
grantees tested.

Recommendations
We recommend that Interior perform the following to improve its grant monitoring process:
1. Maintain a complete and accurate listing of grantees to enable monitoring of grantees, receipt of single
   audit reports, and issuance of management decisions on findings.
2. Communicate federal award requirements to grantees.
3. Follow up on financial status, performance, and single audit reports not received and consider the need
   to limit future grant awards until these reports are received.
4. Issue management decisions on audit findings within six months after receipt of single audit reports
   and verify that grantees take appropriate and timely corrective action.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.

Exhibit I presents the status of prior year significant deficiencies. We noted certain additional matters that
we will report to management of Interior in a separate letter.

Compliance and Other Matters

The results of certain of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed three instances of noncompliance or other matters that are required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04, and are described below.

E. Anti-Deficiency Act

Interior may not make or authorize an expenditure or obligation exceeding an apportionment or an amount
permitted by regulations as specified by Section 1341 in Title 31 of the United States Code (Anti-
Deficiency Act). As discussed in the Internal Control over Financial Reporting section above, Interior did
not comply with the Anti-Deficiency Act because Interior disbursed $1.2 million to counties that was not
authorized under legislation. The unauthorized disbursements occurred because Interior did not modify its
automated system to end disbursements in accordance with new legislation.




                                                      5
Recommendation
We recommend that in fiscal year 2011, Interior improve its procedures on monitoring legislative
provisions to identify provisions affecting Interior operations and to implement a formal communication
process to communicate new legislation affecting Interior operations to those responsible for implementing
such legislation to ensure compliance with the Anti-Deficiency Act.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.

F. Single Audit Act Amendments of 1996

As discussed in the Internal Control over Financial Reporting section of this report, Interior did not
perform adequate monitoring of grantees in accordance with the Single Audit Act Amendments of 1996, the
related OMB Circular No. A-133, and other laws. Interior should ensure that it obtains financial status,
performance, and single audit reports, issues management decisions on audit findings, and monitors
grantees timely.

Recommendation
We recommend that in fiscal year 2011, Interior obtain financial status and single audit reports, issue
management decisions on audit findings, and monitor grantees to ensure compliance with the Single Audit
Act Amendments of 1996, the related OMB Circular No. A-133, and other laws.

Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.

G. Prompt Payment Act

In accordance with the Prompt Payment Act, Interior is required to pay interest penalties when payments
are late. Interior did not properly calculate prompt payment interest at four of its Interior components
because the accounting system is not properly configured to calculate prompt payment interest for certain
transactions, individuals incorrectly entered prompt payment information into the accounting system, and
individuals incorrectly manually calculated prompt payment interest. In addition, Interior did not update
the prompt payment interest rate in one accounting system. As a result, four Interior components paid the
incorrect prompt payment interest amount on 16 of the 170 disbursements tested.

Recommendations
We recommend that in fiscal year 2011, Interior perform the following to ensure compliance with the
Prompt Payment Act:
1. Modify the accounting system to properly calculate prompt payment interest.
2. Require a second individual to compare the prompt payment information from the accounting system
   to supporting documentation to verify that the prompt payment information was properly entered into
   the accounting system and document such comparison.
3. Require a second person to review prompt payment interest that is manually calculated and document
   such review.
4. Update the prompt payment interest rate in the accounting system when the rate changes.



                                                    6
Management Response
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit Interior’s response and, accordingly, we express no opinion on it.

The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which Interior’s financial management systems
did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

                                                *******

Responsibilities

Management’s Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control; and complying with laws, regulations, contracts, and grant
agreements applicable to Interior.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2010 and 2009
financial statements of Interior based on our audits. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of Interior’s internal control over financial reporting. Accordingly, we
express no such opinion.

An audit also includes:
•    Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
     statements;
•    Assessing the accounting principles used and significant estimates made by management; and
•    Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2010 audit, we considered Interior’s internal control over
financial reporting by obtaining an understanding of Interior’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of Interior’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
Interior’s internal control over financial reporting. Furthermore, we did not test all controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.



                                                     7
As part of obtaining reasonable assurance about whether Interior’s fiscal year 2010 financial statements are
free of material misstatement, we performed tests of Interior’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of
FFMIA. We limited our tests of compliance to the provisions described in the preceding sentence, and we
did not test compliance with all laws, regulations, contracts, and grant agreements applicable to Interior.
However, providing an opinion on compliance with laws, regulations, contracts, and grant agreements was
not an objective of our audit and, accordingly, we do not express such an opinion.

                                    ____________________________

This report is intended solely for the information and use of Interior’s management, Interior’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 15, 2010




                                                     8
                                                                                               Exhibit I

                           U.S DEPARTMENT OF THE INTERIOR

                                     Status of Prior Year Findings

                                         September 30, 2010



FY2009
 Ref         Fiscal Year 2009 Condition                      Status of Fiscal Year 2009 Findings

  A      Information Technology Controls             This condition has not been corrected and is
         over Financial Management Systems           repeated in fiscal year 2010. See finding A.

  B      Controls over Property                      This condition has been corrected.

  C      Controls over Undelivered Orders            This condition has not been corrected and is
                                                     repeated in fiscal year 2010. See finding B.

  D      Controls over Estimated Liabilities         This condition has been corrected.

  E      Grant Monitoring Controls                   This condition has not been corrected and is
                                                     repeated in fiscal year 2010. See finding D.

  F      Controls over Fiduciary Activity            This condition has been corrected.

  G      Single Audit Act Amendments of 1996         This condition has not been corrected and is
                                                     repeated in fiscal year 2010. See finding F.

  H      Prompt Payment Act                          This condition has not been corrected and is
                                                     repeated in fiscal year 2010. See finding G.
                                                                                        Attachment 2


                    United States Department of the Interior
                                   OFFICE OF THE SECRETARY
                                     WASHINGTON, D.C. 20240


Memorandum                                   OV 12 2010
To:              Mary L. Kendall
                 Acting Inspector General

                 KPMGLLP
                 2001 M Street, NW
                 Washington, DC 20036

From:            Rhea Suh
                 Assistant Secretary for Policy, Management and Budget
                  and Chief Financial Officer

Subject:         Management's Response to Independent Auditors' Report for Fiscal Year 2010
                 (Assignment No. X-IN-MOA-0004-2010)

The Department ofthe Interior has reviewed the draft report prepared by KPMG LLP and
provides its response to the fmdings and recommendations. We are pleased that the result of the
audit is an unqualified opinion on the Department's Consolidated Financial Statements. The
Department appreciates the recognition noted in several findings and recommendations of the
improvement and progress achieved during Fiscal Year 2010. We appreciate the value of the
audit process and look forward to working with you to continue our marked improvement of
financial management in the Department.


A. Information Technology Controls over Financial Management Systems

      Management concurs. During FY 2010 Interior continued to improve its information
      technology controls including policies and guidance. In FY 2011 we will continue to
      enhance application and general controls over financial management systems with a specific
      focus on the areas of access controls and configuration management. We are constantly
      striving to improve and strengthen the related programmatic aspects of the IT security
      program (including awareness training) and will continue to review all aspects of the IT
      program for refinement, as appropriate. We are in the process of implementing reforms
      including the consolidation of information technology infrastructure, management, and
      oversight that will improve the efficiency and effectiveness of IT services and our ability to
      ensure the implementation of policies and controls.

B. Controls over Undelivered Orders

      Management concurs. Interior and its components will continue to enhance its controls
      over undelivered orders (UDO). We will continue to improve the quarterly review and
   certification process and provide training over certifying and closing aged and completed
   UDO ' s. Interior will evaluate the problems with "recoveries" to ensure their validity. We
   will also analyze the treatment of expired orders in order to develop effective modification
   procedures. Management is committed to bringing each component together to address these
   concerns in an integrated and consistent manner.

C. Controls over Monitoring Legislation

   Management concurs. A Department-wide corrective action plan has been implemented,
   which includes training on apportionment preparation, new internal operating instructions on
   apportionment procedures, revised procedures for tracking legislative actions, new
   management controls requiring confirmation of authorization and appropriation language
   review, and acquiring the Office of Management and Budget's approval of the Department's
   updated funds control regulations. As a result, communications will be strengthened between
   the Department and the components tasked with tracking the appropriations acts and those
   responsible for budget execution, fmancial management, and program operations.

D. Grant Monitoring Controls

   Management concurs. Management will continue to improve grantee communication and
   outreach procedures to yield a timelier and effective single audit receipt and follow-up
   process. The Department and its components will enhance its system for maintaining its
   inventory of grantees to provide a more effective means to monitor grantees and ensure
   receipt of single audit reports. Interior will continue to work with the components to ensure
   that all necessary reports are obtained and that management decisions on audit findings are
   issued in a timely and compliant manner.

E. Anti-Deficiency Act

   Management concurs. As discussed in the Internal Control over Financial Reporting
   section above, a Department-wide corrective action plan has been implemented, which
   includes training on apportionment preparation, internal operating instructions on
   apportionment procedures, revised procedures for tracking legislative actions, new
   management controls requiring confirmation of authorization and appropriation language
   review, to improve communications across the Department and the components tasked with
   tracking the appropriations acts and those responsible for budget execution, fmancial
   management, and program operations.


F. Single Audit Act Amendments of 1996
   Management concurs. As noted in the Internal Control over Financial Reporting section
   above, the Department will work to obtain Single Audit, Financial Status, Grant
   Performance, and Annual Reports in a timely manner. Enhancements will continue to be
   made to the business process for complying with the Single Audit Act.



                                               2
G. Prompt Payment Act

   Management concurs. During FY 2011 , the Department will continue to work to modify
   the core financial systems to calculate prompt pay interest correctly and to establish an
   appropriate level of review of both automated and manual interest calculations.

In closing, corrective action plans will be established for each of these fmdings, which will be
monitored and tracked through completion. The Department is highly committed to improving
these and all other elements of fmancial management.




                                                3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
